HHS/OIG, Audit -"Review of Pension Costs Claimed for Medicare Reimbursement by Horizon Blue Cross Blue Shield
of New Jersey,"(A-07-03-03045)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Horizon Blue Cross Blue Shield of New Jersey," (A-07-03-03045)
December 29, 2003
Complete
Text of Report is available in PDF format (613 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the allowability of pension costs claimed for Medicare reimbursement for
fiscal years 1986 through 2000.  For this period we determined that Horizon overclaimed Medicare pension costs by
$373,452.  This occurred because because Horizon claimed pension costs that it had not funded for the years 1993 and
1997 through 2000.